IN THE SUPREME COURT OF THE UNITED STATES

MALOUF, DENNIS J.
Petitioner
vs.

No:

19-0909

SEC
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
February 10, 2020
cc:
LINDA E. MAICHL
ULMER & BERNE LLP
600 VINE STREET
SUITE 2800
CINCINNATI, OH 45202
KENNETH F. BERG
ULMER & BERNE LLP
500 WEST MADISON STREET
SUITE 3600
CHICAGO, IL 30661

